No. 19-661
IN THE

Supreme Court of the United States
MYNOR ABDIEL TUN-COS, ET AL.,
Petitioners,
v.
B. PERROTTE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, David M. Zionts, a member of
the Bar of this Court, certify that the Petitioners’ Reply to the Brief in Opposition in
the above-captioned case contains 1,454 words, excluding the parts of the brief that
are exempted by Supreme Court Rule 33.1(d).
I further certify that all parties required to be served have been served.
March 10, 2020

s/ David M. Zionts
David M. Zionts
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com
Counsel for Petitioners

